No.
In the
SUPREME COURT OF THE UNITED STATES
WILLIE LEE LEWIS,
Applicant-Petitioner
-vsUNITED STATES OF AMERICA
Respondent-Defendant
CERTIFICATE OF SERVICE
U.S. Sup. Ct. R. 29.4(a)
Petitioner, WILLIE LEE LEWIS, through undersigned counsel, certifies that
a true copy of his Motion for Leave to Proceed in Forma Pauperis and Petition for
Writ of Certiorari to the United States Court of Appeals for the Eleventh Circuit
was this day delivered to the FedEx, a commercial carrier, for delivery within three
calendar days to: Solicitor General of the United States, Room 5616, Department
of Justice, 950 Pennsylvania Ave., N.W., Washington, DC 20530-0001.
Respectfully submitted:
March 27, 2021

s/

Daniel F. Daly

DANIEL F. DALY, ESQ.
Supreme Court Bar No. 252413
Fla. Bar No. 660752
Gainesville, Florida 32635-7100
(352) 505-0445
danfrandaly@gmail.com
Counsel for Willie Lee Lewis
Page 1 of 1

